           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 ADMINISTRATIVE COSTS CLAIMED BY
     THE VIRGINIA DISABILITY
     DETERMINATION SERVICES


      August 2012       A-03-12-11207




 AUDIT REPORT




                    .
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      August 27, 2012                                                     Refer To:

To:        Terry Stradtman
           Regional Commissioner
            Philadelphia

From:      Inspector General

Subject:   Administrative Costs Claimed by the Virginia Disability Determination Services
           (A-03-12-11207)


           OBJECTIVE
           Our objectives were to (1) evaluate Virginia Disability Determination Services’
           (VA-DDS) internal controls over the accounting and reporting of administrative costs;
           (2) determine whether costs claimed were allowable and properly allocated and funds
           were properly drawn; and (3) assess, on a limited basis, the general security controls
           environment.

           BACKGROUND
           The Disability Insurance (DI) program, established under Title II of the Social Security
           Act (Act), 1 provides benefits to wage earners and their families in the event the wage
           earner becomes disabled. The Supplemental Security Income (SSI) program,
           established under Title XVI of the Act, 2 provides benefits to financially needy individuals
           who are aged, blind, or disabled.

           The Social Security Administration (SSA) is responsible for implementing policies for the
           development of disability claims under the DI and SSI programs. 3 Disability
           determinations under both programs are performed by disability determination services
           (DDS) in each State, Puerto Rico, and the District of Columbia. Each DDS determines
           claimants’ disabilities and ensures adequate evidence is available to support its
           determinations. To assist in making proper disability determinations, each


           1
               Social Security Act § 223(a)(1); 42 U.S.C. § 423(a)(1).
           2
               Social Security Act §§ 1602 and 1611; 42 U.S.C. §§ 1381a and 1382.
           3
               SSA, POMS, DI 00115.001 (May 21, 2009).
Page 2 – Terry Stradtman


DDS is authorized to purchase medical examinations, X-rays, and laboratory tests on a
consultative basis to supplement evidence obtained from the claimants’ physicians or
other treating sources.

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. 4 The DDS withdraws Federal funds through the Department of
the Treasury’s Automated Standard Application for Payments system to pay for
program expenditures. Funds drawn down must comply with Federal regulations5 and
intergovernmental agreements entered into by the Department of the Treasury and
States under the Cash Management Improvement Act of 1990. 6

An advance or reimbursement for costs under the program must comply with Office of
Management and Budget Circular A-87, Cost Principles for State, Local, and Indian
Tribal Governments. 7 At the end of each quarter of the Fiscal Year (FY), each DDS
submits a State Agency Report of Obligations for SSA Disability Programs (Form SSA-
4513) to account for program disbursements and unliquidated obligations. 8 Form SSA-
4513 reports expenditures and unliquidated obligations for Personnel, Medical, Indirect,
and All Other Non-personnel costs. 9

VA-DDS is a component of the Virginia Department for Aging and Rehabilitative
Services (VA-DRS). VA-DRS provides VA-DDS such administrative services as
accounting for obligations, making purchases, and preparing requests to transfer cash
from Treasury to the State Treasurer. In FYs 2009 and 2010, VA-DDS claimed costs of
about $39 and $43 million, respectively (see Appendix C).

RESULTS OF REVIEW
Generally, VA-DDS had effective controls over the accounting and reporting of
administrative costs. The costs VA-DDS claimed on Forms SSA-4513 as of April 2012
for FYs 2009 and 2010 were allowable and properly allocated, and funds were properly
drawn.

4
    20 C.F.R. §§ 404.1626 and 416.1026.
5
    31 C.F.R. § 205.1 et seq.
6
    Cash Management Improvement Act of 1990, Pub. L. No. 101-453, 104 Stat. 1058 (1990).
7
 Office of Management and Budget Circular A-87, Cost Principles for State, Local, and Indian Tribal
Governments, (Revised May 10, 2004), establishes principles and standards for determining costs for
Federal awards carried out through grants, cost reimbursement contracts, and other agreements with
State and local governments and federally-recognized Indian tribal governments (governmental units).
8
  SSA, POMS, DI 39506.201 and SSA, POMS, DI 39506.202 (March 12, 2002). SSA, POMS, DI
39506.200 B.4 (March 12, 2002) provides, in part, that, “Unliquidated obligations represent obligations for
which payment has not yet been made. Unpaid obligations are considered unliquidated whether or not
the goods or services have been received.”
9
    Id.
Page 3 – Terry Stradtman


However, we found that VA-DDS had been operating under a Memorandum of
Understanding (MoU) that had been issued in January 1991 (over 20 years ago) and
did not have a specified period of performance or expiration date. Although SSA issued
instructions to all Regional Commissioners in February 2009 10 to update any existing
MoUs that did not have an expiration date, we found, as of May 2012, the regional office
(RO) had not finalized and signed a new MoU with VA-DDS.

Finally, our limited review of VA-DDS’ physical security controls generally showed that
controls were in place. Although the VA-DDS employees received the security
awareness training online, the DDS needs to ensure its staff also signs the required
security awareness acknowledgment statements.

MEMORANDUM OF UNDERSTANDING
We found that VA-DDS had been operating under an MoU that had been issued in
January 1991 (over 20 years ago) and did not have a specified period of performance or
expiration date. The purpose of the DDS MOU is to define the terms and conditions
under which the DDS makes disability determinations for non-SSA workloads.

The January 1991 MoU provided VA-DDS with fiscal and administrative procedures
regarding their processing of work and its accounting and reporting requirements for
non-SSA workloads. However, the MoU did not include provisions for governing the
disclosure of SSA data or an expiration date because these were not requirements in
1991. In 2009, the Agency issued new requirements for MoUs informing the regions
that if they had a non-SSA workload, for example Medicaid claims, their MoU should be
renegotiated if it did not have a specified termination date. All DDS MoUs should now
include language for the safeguard and disclosure of SSA data, language that gives
SSA access all necessary SSA records to verify compliance with the agreement, and
have a specified period of performance.

In February 2009, SSA instructed Regional Commissioners that all DDS MoUs,
including those that did not have an expiration date, must be updated in FY 2009 to
meet Office of General Counsel (OGC) guidelines. RO staff stated they had begun
negotiating a revised MoU to meet the needs of the new Medicaid operation with
VA-DDS in July 2008. Further, on May 16, 2012, the RO sent a draft MoU to SSA
Headquarters for legal, budget, and security review. When we asked why the MoU had
not been finalized, the RO informed us that there were multiple changes in the
personnel responsible for negotiating the MoU at VA-DDS and the RO, and these
breaks in continuity slowed the progress of a final MoU. Additionally, the MoU process
is an ancillary duty, and there was no dedicated staff working on MoUs. The DDS also
informed us that, in addition to vetting the MoU within SSA and the DDS, part of the
document also required formal approval by two additional Federal agencies which
caused delays in the approval process.


10
  Email from Associate Commissioner for Disability Determinations to all Regional Commissioners,
Subject: Non-SSA Program Work Performed in the DDS-ACTION (February 9, 2009).
Page 4 – Terry Stradtman


GENERAL SECURITY CONTROLS
Our limited review of VA-DDS’ physical security controls generally showed that controls
were in place. However, the VA-DDS needs to ensure its staff also signs the required
security awareness acknowledgment statements.

The VA-DDS staff completed the annual security awareness training online; however,
there was conflicting guidance provided to the DDS regarding security awareness
training, and employees did not sign the required acknowledgment statement. All SSA
information system users are required to complete annual security awareness training,
including awareness of security risks, user responsibilities, Agency security compliance
policies and procedures, and role-based training needs. 11 SSA’s current policy states
that management must provide training to personnel at least annually on security
awareness and responsibilities in protecting personally identifiable information and
maintaining integrity; and management must validate the training. 12 In addition, all
employees and contractors must sign an annual statement acknowledging their
understanding of security awareness. Further, the DDS should keep the signed
statement on file in the DDS for at least 1 year, and send a copy to the designated RO
component, such as the Centers for Disability Programs or Security and Integrity. 13

When we asked to view the signed statements for FY 2011, we found that VA-DDS did
not require that employees sign statements attesting that they received the required
annual training that year. The DDS informed us that although all employees received
the training online, they did not ensure all employees signed the acknowledgment
statement. When we contacted regional managers about the annual training
acknowledgment statements, they indicated the region did not request copies of the
signed statements from the DDS because they were able to track the training through
DDS employees’ personal identification numbers.

The Agency informed us that staff was revising policy to require that the DDS send
copies of signed annual security awareness training statements to the RO. Instead of
copies of statements, the revised policy will require that DDS managers provide a report
containing the names and personal identification numbers of all DDS employees and
contractors who received security awareness training. In addition to the names and
personal identification numbers, the report will be certified by a DDS manager validating
that all required DDS employees and contractors received the training and signed the
acknowledgment statement.



11
  SSA, OIS, Information Systems Security Handbook (ISSH): Systems Security Training & Awareness
Policy, Chapter 9.0 (March 19, 2007).
12
     Id, at 9.3.1.
13
  DDS Administrators’ Letter No. 715, from Associate Commissioner for Disability Determinations to all
Regional Commissioners and State Disability Determination Services Administrators, Subject: DDS
Security Reminders – INFORMATION, (October 16, 2006).
Page 5 – Terry Stradtman


CONCLUSION AND RECOMMENDATIONS
VA-DDS’ internal controls over the accounting and reporting of administrative costs
were effective. However, SSA’s Philadelphia Region should adhere to the Agency’s
instructions sent to all ROs in February 2009 to update, finalize, and sign a new MoU.
Also, VA-DDS should conduct security awareness training annually and ensure that it
maintains the signed security acknowledgment statements.

Based on the results of our audit, we recommend that SSA:

1. Finalize and sign a new MoU that complies with the current guidance.

2. Instruct VA-DDS to conduct security awareness training annually and maintain the
   signed annual security acknowledgment statements on file for a minimum of 1 year,
   and validate to the RO that all employees and contractors received the training and
   signed the acknowledgment statement.

AGENCY COMMENTS
SSA and the VA-DRS agreed with our recommendations. See Appendices E and F,
respectively, for the full texts of the comments.




                                     Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Schedule of Total Costs Reported on Forms SSA-4513—State Agency
             Reports of Obligations for SSA’s Disability Programs

APPENDIX D – Agency Comments

APPENDIX E – Parent Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                                Appendix A

Acronyms
Act           Social Security Act
C.F.R.        Code of Federal Regulations
DDS           Disability Determination Services
DI            Disability Insurance
FY            Fiscal Year
MOU           Memorandum of Understanding
OGC           Office of General Counsel
OIG           Office of the Inspector General
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
RO            Regional Office
SSA           Social Security Administration
SSI           Supplemental Security Income
VA-DDS        Virginia Disability Determination Services
VA-DRS        Virginia Department for Aging and Rehabilitative Services
U.S.C.        United States Code

FORM
SSA-4513      State Agency Report of Obligations for SSA Disability Programs
                                                                         Appendix B

Scope and Methodology
To accomplish our objectives, we reviewed the administrative costs Virginia Disability
Determination Services (VA-DDS) reported on its State Agency Report of Obligations
for SSA’s Disability Programs, Forms SSA-4513, for Fiscal Years (FY) 2009 and 2010.
For the periods reviewed, we obtained evidence to evaluate recorded financial
transactions and determine whether they were allowable under Office of Management
and Budget Circular A-87, and appropriate, as defined by the Social Security
Administration’s (SSA) Program Operations Manual System (POMS).

We also:
•   Reviewed applicable Federal laws, regulations and pertinent parts of POMS,
    DI 39500, DDS Fiscal and Administrative Management, and other instructions
    pertaining to administrative costs incurred by VA-DDS and draw down of SSA funds.
•   Interviewed staff at VA-DDS and the Philadelphia Regional Office.
•   Evaluated and tested internal controls regarding accounting and financial reporting
    and cash management activities.
•   Verified the reconciliation of official State accounting records to the administrative
    costs reported by VA-DDS on Forms SSA-4513 for FYs 2009 and 2010.
•   Examined the administrative expenditures (Personnel, Medical Service, and All
    Other Non-personnel costs) incurred and claimed by VA-DDS for FYs 2009 and
    2010 on Forms SSA-4513.
•   Examined the indirect costs claimed by VA-DDS for FYs 2009 and 2010 and the
    corresponding Indirect Cost Rate Agreements.
•   Compared the amount of SSA funds drawn to support program operations to the
    allowable expenditures reported on Forms SSA-4513.
•   Reviewed the June 2009 State of Virginia Single Audit report issued in and the May
    2006 VA-DDS audit
•   Conducted limited general control testing, which encompassed reviewing the
    physical access security within the DDS.

The electronic data used in our audit were sufficiently reliable to achieve our audit
objectives. We assessed the reliability of the electronic data by reconciling them with
the costs claimed on the Forms SSA-4513. We also conducted detailed audit testing on
selected data elements in the electronic data files.

We performed our audit at the VA-DDS Administrative Building, VA-DDS Central
Regional Office, and Department of Rehabilitative Services in Richmond, Virginia;
VA-DDS Richmond Office; and Office of Audit in Philadelphia, Pennsylvania, from


                                             B-1
March through May 2012. We conducted our audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient and appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives.

METHODOLOGY
Our sampling methodology encompassed the four general areas of costs as reported on
Forms SSA-4513: (1) Personnel, (2) Medical, (3) Medical Consultants, and (4) All Other
Non-personnel costs. We obtained computerized data from VA-DDS for FYs 2009 and
2010 for use in statistical sampling. In addition, we reviewed general security controls
the DDS had in place.

Personnel Costs

We sampled 50 employee salary items from 1 randomly selected pay period in
FY 2010. We tested regular and overtime payroll and hours for each individual
selected. We verified that approved time records were maintained and supported the
hours worked. We tested payroll records to ensure the VA-DDS correctly paid
employees and adequately documented these payments.

We reviewed all 28 medical consultant costs from 1 randomly selected pay period in
FY 2010. We determined whether costs were reimbursed properly and ensured the
medical consultants were licensed.

Medical Costs

We sampled a total of 100 medical evidence of records and consultative examination
records (50 items from each FY) using a proportional random sample. We determined
whether sampled costs were properly reimbursed.

Indirect Costs

We reviewed the indirect cost base and computations used to determine those costs for
reimbursement purposes. Our objective was to ensure SSA reimbursed VA-DDS in
compliance with the approved Indirect Cost Rate Agreement. We analyzed the
approved rate used, ensuring the indirect cost rate changed when the Indirect Cost
Rate Agreement was modified. We reviewed the documentation and traced the base
amounts to Forms SSA-4513 for the indirect cost computation components. We
determined whether the approved rate used was a provisional, predetermined, fixed, or
final rate.




                                          B-2
All Other Non-Personnel Costs

We stratified All Other Non-personnel costs into nine categories: (1) Occupancy,
(2) Contracted Costs, (3) New Electronic Data Processing, (4) Equipment Rental,
(5) Communications, (6) Applicant Travel, (7) DDS Travel, (8) Supplies, and
(9) Miscellaneous. We selected a stratified random sample of 50 items from FY 2009
and 50 items from FY 2010 based on the percentage of costs in each category to total
costs. We also performed a 100-percent review of 20 unidentifiable cost items for the
Richmond DDS office.

General Security Controls

We conducted limited general security control testing. Specifically, we reviewed the
following eight areas relating to general security controls: (1) Perimeter Security,
(2) Intrusion Detection, (3) Key Management, (4) Internal Office Security, (5) Equipment
Rooms, (6) Security Plan, (7) Continuity of Operations, and (8) Other Security Issues.
We determined whether the general security controls the DDS had in place were
satisfactory.

Personally Identifiable Information

We reviewed a random sample of various mailed documents VA-DDS produced to
determine whether personally identifiable information was referenced only on those
deemed necessary.




                                          B-3
                                                                                    Appendix C

Schedule of Total Costs Reported on
Forms SSA-4513—State Agency Reports of
Obligations for SSA’s Disability Programs

                Virginia Disability Determination Services


         REPORTING ITEM                          FY 2009                     FY 2010
                                            as of April 30, 2012       as of April 30, 2012


    Disbursements
        Personnel                                   $22,148,430                $25,966,679
        Medical                                       $7,048,996                 $8,573,568
        Indirect Costs                                $4,572,509                 $5,295,314
        All Other Non-
        Personnel                                     $4,837,819                 $3,527,116

    Total Disbursements                             $38,607,754                $43,362,677

    Unliquidated Obligations                           $100,495*                      $9,183

    Total Obligations                               $38,708,249                $43,371,860
   *As of May 29, 2012, $99,646 is for recently installed and billed telephone system upgrade
                                                                             Appendix D

Agency Comments

August 1, 2012

In response to the draft audit report on Administrative Costs Claimed by the Virginia Disability
Determination Services (A-03-12-11207) for fiscal years 2009 and 2010, the Philadelphia
Region is submitting the following corrective action plan that also provides a status of each
recommendation:

Recommendation #1:
Finalize and sign a new MOU that complies with the current guidance.

Response:
A new memorandum of understanding (MOU) between SSA, Virginia Department for Aging
and Rehabilitative Services, and Virginia Department of Medical Assistance Services was
approved and finalized with an effective date of July 1, 2012.

Recommendation #2:
Instruct VA-DDS to conduct security awareness training annually, maintain the signed annual
security awareness statements on file for a minimum of 1 year, and validate to the RO that all
DDS employees and contractors received the training and signed the acknowledgement
statement.

Response:
The Virginia DDS conducted its annual security awareness training on time. SSA tracked the
completion of the training through the DDS employees’ Personal Identification Numbers. SSA
will instruct the DDS to maintain the signed annual security awareness statements on file for a
minimum of 1 year and validate to the Regional Office that all DDS employees and contractors
received the training and signed the acknowledgement statements.

Staff questions should be directed to Jim Steiner by email, or at 215-597-2046 in the Center for
Disability Programs.

Terry M. Stradtman
Regional Commissioner
                         Appendix E

Parent Agency Comments
E-1
E-2
                                                                          Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Cylinda McCloud-Keal, Director, Philadelphia Audit Division
   Carol Madonna, Audit Manager

Acknowledgments

In addition to those named above:

   Damon Mahoner, Auditor-in-Charge
   Michael J. Brooks, Auditor
   Walter Mingo, Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-03-12-11207.
                            DISTRIBUTION SCHEDULE


Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
